HHS/OIG, Audit -"Audit of the Centers for Disease Control and Preventions Foreign Travel Conducted with HIV/AIDS
Funds,"(A-04-02-04004)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Centers for Disease Control and Preventions Foreign Travel Conducted with HIV/AIDS Funds," (A-04-02-04004)
November 5, 2002
Complete
Text of Report is available in PDF format (390 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that our review of foreign travel paid for with HIV/AIDS funds revealed no evidence of substantive
violations of Centers for Disease Control and Prevention (CDC) or departmental regulations by CDC personnel. However, the
Office of the Secretary (OS) and the CDC Office of Global Health (OGH) were not always notified of foreign travel as required.
For 81 percent of the trips tested the OS was not notified, and for 34 percent of trips tested the OGH was not notified.
This situation has improved since the requirement that OS approve foreign travel was implemented, but approval was still
not obtained for about 5 percent of the trips tested. We also noted that; (1) in 8 cases employees who did not have the
necessary authority approved travel orders for foreign travel, (2) the American Embassy in the country visited was not
notified in 16 cases that required notification, and (3) receipts that support travel vouchers were sometimes missing or
copies were used in place of originals. We recommended procedural corrections and enforcement of policies. The CDC concurred
with our recommendations, and is taking steps to ensure that all foreign travel policies and procedures are adhered to
in the future.